     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General
                                                                         Office of Audit Services, Region V
                                                                         233 North Michigan Avenue
                                                                         Suite 1360
                                                                         Chicago, IL 60601
                                       December 15, 2009

Report Number: A-05-08-00091

Mr. Barry S. Maram
Director
Illinois Department of Healthcare and Family Services
201 South Grand Avenue East
Springfield, Illinois 62763-0001

Dear Mr. Maram:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG) final report entitled “Review of Eligibility Redeterminations for Medicaid Beneficiaries in
Cook County, Illinois.” We will forward a copy of this report to the HHS action official noted
on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-08-00091 in all correspondence.

                                             Sincerely,



                                             /Stephen Slamar/
                                             Acting Regional Inspector General
                                              for Audit Services
Enclosure
Page 2 - Mr. Barry S. Maram



Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF ELIGIBILITY
  REDETERMINATIONS FOR
 MEDICAID BENEFICIARIES IN
  COOK COUNTY, ILLINOIS

    JULY 1, 2006, THROUGH
        JUNE 30, 2007



                       Daniel R. Levinson
                        Inspector General

                         December 2009
                         A-05-08-00091
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
                              Notices


         THIS REPORT IS AVAILABLE TO THE PUBLIC
                   at http://oig.hhs.gov

  Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
  OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as questionable,
  a recommendation for the disallowance of costs incurred or claimed,
  and any other conclusions and recommendations in this report represent
  the findings and opinions of OAS. Authorized officials of the HHS
  operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to Federal and Illinois requirements, Medicaid-eligibility redeterminations are required
at least every 12 months and when a beneficiary’s circumstances affecting eligibility may have
changed. The State Medicaid agency must have procedures designed to ensure that required
annual eligibility redeterminations are performed and beneficiaries make timely and accurate
reports of any change in circumstances that may affect their eligibility. Redeterminations are
required to ensure that a beneficiary continues to meet the Medicaid-eligibility requirements.

Under Title XIX of the Act, Medicaid payments are allowable only for eligible beneficiaries.
Generally, Federal regulations (42 CFR §§ 431.800–431.865) require the State to have a
Medicaid eligibility quality control (MEQC) program designed to reduce erroneous expenditures
by monitoring eligibility decisions. In addition, these regulations contain procedures for
disallowing Federal payments for erroneous Medicaid payments that result from eligibility and
beneficiary liability errors above a certain level, as detected through the MEQC program.

The Illinois Department of Healthcare and Family Services (State Medicaid agency)
administered the State medical assistance (Medicaid) program and was responsible for ensuring
that eligibility redeterminations were performed. The State Medicaid agency delegated to the
Illinois Department of Human Services (State human services agency) the administration of the
Medicaid application and eligibility process, including the performance of initial eligibility
determinations and redeterminations. Staff within the State human services agency’s local
Family Community Resource Centers conducted the reviews. During our audit period, 22
Family Community Resource Centers were located in Cook County (Cook County centers).

For the audit period July 1, 2006, through June 30, 2007, the State Medicaid agency paid
approximately $5 billion for services on behalf of 1.1 million Cook County beneficiaries.
During this time, the State Medicaid agency paid $2.5 billion for services provided to 578,974
Cook County beneficiaries who were continuously Medicaid-enrolled for the 3-year period
July 1, 2005, through June 30, 2008. The remaining $2.5 billion was paid for beneficiaries who
were enrolled for some portion of the 3-year period.




                                                i
OBJECTIVE

Our objective was to determine whether the State Medicaid agency, through its agent, the State
human services agency, made timely redeterminations for Medicaid beneficiaries who were
continuously enrolled during our audit period.

SUMMARY OF FINDING

Generally, the State Medicaid agency made timely redeterminations for Medicaid beneficiaries
who were continuously enrolled during our audit period. From a random sample of 200
Medicaid beneficiaries with payments for services totaling $916,658, the State Medicaid agency
paid $911,396 to providers on behalf of 191 beneficiaries whose redeterminations were
performed by the Cook County centers within the required 12-month period. However, the State
Medicaid agency paid $5,262 to providers on behalf of nine beneficiaries whose eligibility
redeterminations were not performed by the Cook County centers within the required 12-month
period. The Medicaid payments were made on behalf of the nine beneficiaries because the State
agency was unaware that the Cook County centers did not always comply with Federal and State
requirements. Although the Cook County centers were provided with a monthly list of the cases
that were due for redetermination, the centers did not complete all of the redeterminations
pursuant to the Federal and State requirements. For the period July 1, 2006, through June 30,
2007, we estimated that the State Medicaid agency claimed $15,232,024 ($7,616,012 Federal
share) for Medicaid services provided to 26,054 beneficiaries whose eligibility redeterminations
were not performed by the Cook County centers within the required 12-month period.

We are not recommending recovery of the Federal share of payment made on behalf of
beneficiaries whose eligibility redeterminations were not completed in a timely fashion because a
disallowance of Federal payments for Medicaid eligibility errors can occur only if the errors are
detected through a State’s MEQC program.

RECOMMENDATION

We recommend that the State Medicaid agency require the State human services agency to
develop a corrective action plan to help ensure Cook County centers perform Medicaid
beneficiary eligibility redeterminations at least every 12 months pursuant to Federal and State
requirements.

STATE MEDICAID AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency stated that they are working
closely with the State human services agency to develop a corrective action plan to complete
redeterminations timely. The State Medicaid agency comments are included in their entirety as
Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Federal and State Requirements.....................................................................1
              Illinois Medicaid Eligibility Quality Control Review ..................................1
              Illinois Department of Healthcare and Family Services ................................2

          OBJECTIVE, SCOPE AND METHODOLOGY ......................................................2
               Objective ........................................................................................................2
               Scope..............................................................................................................2
               Methodology ..................................................................................................3

FINDING AND RECOMMENDATION...........................................................................4

          FEDERAL AND STATE REQUIREMENTS ..........................................................4

          PAYMENTS FOR BENEFICIARIES WITHOUT MEDICAID-ELIGIBILITY
          REDETERMINATIONS ...........................................................................................4

          COOK COUNTY CENTERS COMPLIANCE WITH REQUIREMENTS ............6

          RECOMMENDATION .............................................................................................6

          STATE MEDICAID AGENCY COMMENTS.........................................................6

APPENDIXES

          A – SAMPLING METHODOLOGY

          B – SAMPLING RESULTS AND ESTIMATES

          C – STATE MEDICAID AGENCY COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Federal and State Requirements

Pursuant to Federal and Illinois requirements, Medicaid-eligibility redeterminations are required
at least every 12 months and when a beneficiary’s circumstances affecting eligibility may have
changed. The State Medicaid agency must have procedures designed to ensure that required
annual eligibility redeterminations are performed and beneficiaries make timely and accurate
reports of any change in circumstances that may affect their eligibility. Redeterminations are
required to ensure that a beneficiary continues to meet the Medicaid-eligibility requirements.

Pursuant to Title XIX of the Act, Medicaid payments are allowable only for eligible
beneficiaries. Generally, Federal regulations (42 CFR §§ 431.800–431.865) require the State to
have a Medicaid eligibility quality control (MEQC) program designed to reduce erroneous
expenditures by monitoring eligibility decisions. In addition, the regulations contain procedures
for disallowing Federal payments for erroneous Medicaid payments that result from eligibility
and beneficiary liability errors above a certain level, as detected through the MEQC program.

Illinois Medicaid Eligibility Quality Control Review

The Illinois Department of Healthcare and Family Services (State Medicaid agency) operated the
MEQC program as a pilot program that conducted focused reviews and special studies. The
purpose of the fiscal year (FY) 2007 review was to determine the accuracy and thoroughness of
Medicaid eligibility redeterminations that were completed. The universe of this review included
statewide redeterminations for three categories of assistance: Medical Assistance No Grant; Aid
to the Aged, Blind, and Disabled; and Medicaid cases that did not receive a Temporary
Assistance for Needy Families (TANF) grant. Sampled redetermination case files were reviewed
to determine the accuracy and thoroughness of the most recent redetermination completed. After
completing all eligibility reviews, the State Medicaid agency calculated a case error rate.

The FY 2007 MEQC program selected and reviewed 1,198 redetermination case files. 1 The
MEQC program identified 246 files (21 percent) with eligibility errors and of those, 144 were
identified with payment errors.

1
The sample frame of our audit included 264 of the case files reviewed under the MEQC program (264 of 1,198).
However, none of the case files were selected in our audit sample of 200 cases.



                                                       1
The State Medicaid agency reported to CMS the results of the FY 2007 MEQC program review
on April 3, 2009. CMS responded to the report on May 21, 2009, and requested a copy of
corrective action plans to address the deficiencies noted in the summary of findings report. The
State Medicaid agency is currently developing recommendations for improvement.

Illinois Department of Healthcare and Family Services

The State Medicaid agency administered the State Medicaid program and was responsible for
ensuring that eligibility redeterminations were performed. The State Medicaid agency delegated
to the Illinois Department of Human Services (State human services agency) the administration
of the Medicaid application and eligibility process, including the performance of initial eligibility
determinations and redeterminations. Staff within the State human services agency’s local
Family Community Resource Centers conducted the reviews. During our audit period, 22 Family
Community Resource Centers were located in Cook County (Cook County centers).

For the audit period July 1, 2006, through June 30, 2007, the State Medicaid agency paid
approximately $5 billion for services on behalf of 1.1 million Cook County beneficiaries.
During this time, the State Medicaid agency paid $2.5 billion for services provided to 578,974
Cook County beneficiaries who were continuously Medicaid-enrolled for the 3-year period
July 1, 2005, through June 30, 2008. The remaining $2.5 billion was paid for beneficiaries who
were enrolled for some portion of the 3-year period.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether the State Medicaid agency, through its agent, the State
human services agency, made timely redeterminations for Medicaid beneficiaries who were
continuously enrolled during our audit period.

Scope

The scope of our audit included State Medicaid agency payments made for services provided to
Cook County beneficiaries during the period July 1, 2006, through June 30, 2007. For this
period, the State Medicaid agency paid approximately $2.5 billion for services provided to
578,974 Cook County beneficiaries who were continuously Medicaid-enrolled for the 3-year
period July 1, 2005, through June 30, 2008. We selected this 3-year period to ensure that the
sampled beneficiaries were enrolled before and after our 1-year audit period, ensuring that
Medicaid-eligibility redeterminations were required during our audit period.

From the population of 578,974 beneficiaries, we selected and reviewed Medicaid-eligibility
redetermination documentation for a random sample of 200 beneficiaries for which the State
Medicaid agency made Medicaid payments totaling $916,658 during our audit period.




                                                 2
We did not review the overall internal control structure of the State Medicaid agency or Cook
County centers. We limited our internal control review to obtaining an understanding of the
procedures used to perform Medicaid-eligibility redeterminations for Cook County beneficiaries.

We performed our fieldwork at the Humboldt Park Cook County Center in Chicago, Illinois,
during December 2008.

Methodology

To accomplish our audit objective, we:

        obtained eligibility data from the State Medicaid agency’s Medicaid Management
         Information System (MMIS) 2 to identify 578,974 Cook County beneficiaries who were
         continuously enrolled in Medicaid during the 3-year period July l, 2005, through
         June 30, 2008;

        used the State Medicaid agency’s MMIS data to obtain payment data on behalf of the
         beneficiaries continuously enrolled during our audit period;

        selected a random sample of 200 of the 578,974 beneficiaries and reviewed the Medicaid
         case files and other supporting documentation to

              o determine the month and year of the last Medicaid-eligibility redetermination
                before our audit period and

              o determine whether a Medicaid-eligibility redetermination was performed within
                12 months of the last redetermination and during the audit period;

        identified beneficiaries whose required Medicaid-eligibility redeterminations were not
         performed and quantified the Medicaid payments that were made on their behalf during
         the audit period;

        estimated, based on the sample results,

              o the number of beneficiaries whose Medicaid-eligibility redeterminations were not
                performed within the required 12-month period and

              o the total Medicaid payments that the State Medicaid agency made on behalf of
                those beneficiaries; and

        reviewed the Illinois MEQC Summary of Information report for Federal fiscal year 2007
         and the CMS response, dated May 21, 2009, to the State Medicaid agency.


2
 MMIS is a mechanized claims processing and information retrieval system that States are required to use to record
Title XIX program and administrative costs, report services to recipients, and report selected data to CMS.



                                                         3
See Appendixes A and B for details regarding the sampling methodology and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Generally, the State Medicaid agency made timely redeterminations for Medicaid beneficiaries
who were continuously enrolled during our audit period. From a random sample of 200
Medicaid beneficiaries with payments for services totaling $916,658, the State Medicaid agency
paid $911,396 to providers on behalf of 191 beneficiaries whose redeterminations were
performed by the Cook County centers within the required 12-month period. However, the State
Medicaid agency paid $5,262 to providers on behalf of nine beneficiaries whose eligibility
redeterminations were not performed by the Cook County centers within the required 12-month
period. The Medicaid payments were made on behalf of the nine beneficiaries because the State
agency was unaware that the Cook County centers did not always comply with Federal and State
requirements. Although the Cook County centers were provided with a monthly list of the cases
that were due for redetermination, the centers did not complete all redeterminations pursuant to
Federal and State requirements. For the period July 1, 2006, through June 30, 2007, we
estimated that the State Medicaid agency claimed $15,232,024 ($7,616,012 Federal share) for
Medicaid services provided to 26,054 beneficiaries whose eligibility redeterminations were not
performed by the Cook County centers within the required 12-month period.

FEDERAL AND STATE REQUIREMENTS

Federal regulations (42 CFR § 435.1002(b)) state that Federal financial participation is available
in expenditures for services provided to recipients who were Medicaid-eligible in the month in
which the medical care or services were provided. Pursuant to 42 CFR § 435.916, the State
agency must perform eligibility redeterminations for Medicaid beneficiaries at least every
12 months.

Pursuant to Illinois Administrative Code 89, section 120.399, a redetermination of eligibility
shall be conducted at least every 12 months and when a beneficiary’s circumstances affecting
eligibility may have changed.

PAYMENTS FOR BENEFICIARIES WITHOUT MEDICAID-ELIGIBILITY
REDETERMINATIONS

From a random sample of 200 Medicaid beneficiaries with payments totaling $916,658, the State
Medicaid agency made payments totaling $5,262 on behalf of 9 beneficiaries whose eligibility
redeterminations were not performed within the required 12-month period.




                                                4
                  Summary of Sampled Beneficiaries and Associated Payments
                                                  Sampled
                                                 Beneficiaries             Payments
            Beneficiaries with eligibility
            redeterminations performed within          191                 $911,396
            12-month period
            Beneficiaries without eligibility
            redeterminations performed within             9                   5,262
            12-month period
               Total                                   200                 $916,658

Medicaid application files and other supporting documentation indicated that the Medicaid-
eligibility redeterminations for the nine beneficiaries were not performed by the Cook County
centers within the required 12-month period. However, the nine beneficiaries were determined
to be Medicaid eligible when the Cook County centers performed the past-due redeterminations.
For the period July 1, 2006, through June 30, 2007, we estimated that the State Medicaid agency
claimed approximately $15,232,024 ($7,616,012 Federal share) for Medicaid services provided
to 26,054 beneficiaries whose eligibility redeterminations were not performed by the Cook
County centers within the required 12-month period (Appendix B).

In the following example, the State Medicaid agency made payments for services on behalf of a
beneficiary whose Medicaid-eligibility redetermination had not been performed during the
12-month audit period.

                Exhibit 1. Period of Time Without Redetermination Performed
                                     (Sample Beneficiary)




                                            12-Month Audit Period




        Mar 2004        Mar 2005     July 2006                 June 2007                Nov 2008
        Eligibility      None          None                      None                   Eligibility
      Redetermination                                                                 Redetermination
        Performed                                                                       Performed




The Cook County centers performed the beneficiary’s last Medicaid-eligibility redetermination
in March 2004, before our audit period. However, Cook County centers did not complete the
required eligibility redetermination by March 2005 or during our audit period but completed it in
November 2008. The State Medicaid agency considered the beneficiary Medicaid-eligible from
March 2004 through November 2008 without performing any eligibility redeterminations during
this time. The State Medicaid agency made payments on behalf of the beneficiary during the



                                                 5
audit period July 1, 2006, through June 30, 2007. During the November 2008 redeterminations,
the individual was found to be eligible for Medicaid.

COOK COUNTY CENTERS COMPLIANCE WITH REQUIREMENTS

The State Medicaid agency personnel informed us that they were unaware that the State human
services agency’s Cook County centers did not consistently comply with the Federal and State
Medicaid requirements to ensure that eligibility redeterminations were performed in a timely
manner. A Priority Action List report was provided monthly to local offices of the State human
services agency. The list identified cases which had an error, had a high probability of error, or
were due for a redetermination. Local office managers determined the priority order for
reviewing the cases that appeared on the Priority Action List and each case listed was assigned to
the appropriate caseworker. Although the Cook County centers were provided with a monthly
list of the cases that were due for redetermination, the centers did not complete all eligibility
redeterminations.

We are not recommending recovery of the Federal share of payments made on behalf of
beneficiaries whose eligibility redeterminations were not completed primarily because, under
Federal laws and regulations, a disallowance of Federal payments for Medicaid eligibility errors
can occur only if the errors are detected through a State’s MEQC program.

RECOMMENDATION

We recommend that the State Medicaid agency require the State human services agency to
develop a corrective action plan to help ensure Cook County centers perform Medicaid
beneficiary eligibility redeterminations at least every 12 months pursuant to Federal and State
requirements.

STATE MEDICAID AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency stated that they are working
closely with the State human services agency to develop a corrective action plan to complete
redeterminations timely. The State Medicaid agency comments are included in their entirety as
Appendix C.




                                                6
APPENDIXES
                                                                                   Page 1 of 2



                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population was beneficiaries with 3 years of continuous Medicaid enrollment in Cook
County during July l, 2005, through June 30, 2008, and with Medicaid payments for services
provided to those beneficiaries during the 12-month audit period, July 1, 2006, through
June 30, 2007.

SAMPLE FRAME

The sampling frame was 578,974 beneficiaries that were continuously enrolled in Medicaid for
the 3-year period, July l, 2005, through June 30, 2008.

SAMPLE UNIT

The sample unit was a beneficiary.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a random sample of 200 beneficiaries.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, statistical software.

METHOD OF SELECTING SAMPLE ITEMS

The sample frame was consecutively numbered from 1 to 578,974. After generating 200 random
numbers, we selected the corresponding sample frame items to create a list of sample items.
                                                                                  Page 2 of 2



ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
calculate our estimates. We estimated the total number of beneficiaries whose Medicaid-
eligibility redeterminations were not performed and the State Medicaid agency payments made
to providers for services provided to those beneficiaries during our audit period.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                       Sample Results
                                                         Number of
                                                    Beneficiaries Without
     Number of                                           Eligibility
   Beneficiaries in     Sample        Value of       Redeterminations           Value of
   Sample Frame          Size          Sample       During Audit Period         Payments
      578,974             200         $916,658                9                  $5,262



                                         Estimates
                 (Limits Calculated for a 90-Percent Confidence Interval)
                              Estimated Number of
                              Beneficiaries Without
                           Eligibility Redeterminations
                               During Audit Period           Estimated Payments
     Point Estimate                    26,054                     $15,232,024
     Lower Limit                       13,709                      $5,918,088
     Upper Limit                       44,699                     $24,545,961


Based on the sample results, we estimated that the State Medicaid agency claimed $15,232,024
($7,616,012 Federal share) for Medicaid services provided to 26,054 beneficiaries whose
Medicaid-eligibility redeterminations were not performed in a timely fashion.
       APPENDIX C: STATE MEDICAID AGENCY COMMENTS 




                        ILLINOIS DEPARnlENf or



              PS        Healthcare and 	
                        Fa III il y Se I'd ees
                                                                          Pat Quinn, Governor
                                                                          Barry S. Maram , Director


    201 Soulh Grand Avenue Easl                                           Telephone: (217) 782- 1200
    Springfield. Illinois 62763-0002                                      TTY : (800) 526-5812




Novemher 17. 2009

Nlr. Mark (iuslafson
Regiona l Inspectcr (Jeneral I'lr !\udit Senlic~s
Office or Audit Sen ices. Region V
Office of Inspecwr Ge neral
U.S. Derarlment of Heul:h alid IlullIan Sen in:s
233 North Michigan J\ venue. Suite 1:;00
Chicago_ Illinois 6060 I

Report Numher: J\ -05-08 -0009 I

Dear Mr. Gust.lls on:

Wc have revi ewcd the dra l't audit r~ pllrt entitled "Rl.:view of Eligihility Redel rminations lor
Medicaid lkndici aries in Coo k County. IlIinllis." Thc report states that nine llU t of 100
randoml y snmpkd ivledica id hcndiciarit:"s did not havc thcir eligibility redl.:l~rminations
performed within thc required 12-month tillle: perilld. HI'S will work closely with the
Depar11l1elll of 1·lul11an Servic~s to develop a correcti\'c action plan to compit:te
redeterlllinntions timely.

\Vc apprcciatc the Llpport uni ty to (pmlllcnt on this ,Iran report. Should you haye questions
regarding our rc sponsc_ llr nced any aJditional illfunnat il)n. pkase contact Pcggy Edwnrds ormy
starr. She nm) he reached by telepholle at (2 17) 7X5-97M or by e-mail at
I\:gg: .i:lJ ~,lrJ , .@IU~)j,.lJ.i \ .

Sincerei) .




~'~dD;'.""".
Division of 1'vkdiea! Programs




                                                                        Internet: hllp:lIV1ww.hfs.illinois.govl
